                                              EMPLOYMENT AND
                                              TRAINING ADMINISTRATION
                                                                                            DRAFT


Office of Inspector General—Office of Audit




                                              ALLEGED VIOLATIONS OF WORKFORCE INVESTMENT ACT (WIA)
                                              PROGRAM AND FEDERAL GUIDELINES AT ONE-STOP CENTER
                                              OPERATED BY AFFILIATED COMPUTER SERVICES, INC. (ACS)




                                                                      Date Issued: December 13, 2005
                                                                      Report Number: 05-06-002-03-390
U.S. Department of Labor
Office of Inspector General                      December 2005
Office of Audit                                  Alleged Violations of WIA Program and
                                                 Federal Guidelines at One-Stop Center
                                                 Operated by Affiliated Computer Services,
BRIEFLY…                                         Inc. (ACS)
Highlights of Report Number: 05-06-002-03-
390, to Emily Stover DeRocco, the Assistant      WHY OIG DID THE AUDIT
Secretary for Employment and Training
                                                 OIG performed an audit to determine the
WHY READ THE REPORT                              validity of the complaint against ACS and its
                                                 WIA program operation. To view the report,
The Workforce Investment Act (WIA) was           including the scope, methodology, and full
enacted on July 1, 2000, to increase the         grantee response, go to:
employment, retention, skills, and earnings of   http://www.oig.dol.gov/public/reports/oa/200
its participants. One component of WIA is        5/05-06-002-03-390.pdf
specifically designed to assist dislocated
workers in finding replacement jobs or train     WHAT OIG FOUND
these workers to qualify for jobs in new         The OIG found the alleged mismanagement of
occupations. DOL provided funding to             the WIA Dislocated Worker Program and
operate a WIA program in the State of Kansas     funds was unsupported.
through a grant to the Governor. Kansas is
divided into five Local Workforce Investment     The complainant made her initial visit to the
Areas (LWIA).                                    One-Stop Center on June 17, 2004, seeking
                                                 assistance. The complainant could not
Effective February 1, 2004, the Local            participate in the program of training services
Workforce Investment Board IV (LWIB)             because she did not provide all required
selected Affiliated Computer Services, Inc.      information for her enrollment. On
(ACS) as the WIA program operator in Area        November 4, 2004, ACS restarted her
IV. On December 9, 2004, a hotline               eligibility determination and ultimately
complaint filed with the OIG alleged             provided educational assistance. The
mismanagement of the Dislocated Worker           complainant is attending Butler County
Program and funds. Specifically, the             Community college and will transfer to
allegations were: the complainant was            Wichita State University for a Degree in
improperly denied WIA program funds; the         Computer Science.
complainant’s case file lacked documentation
on training completed; WIA Dislocated            The LWIB IV WIA program policy was
Worker Program requirements and eligibility      consistent with the WIA Act and regulations.
changed at each LWIB meeting attended by         WIA, Section 117 authorizes the LWIB to set
the complainant; the complainant’s training      policy for the workforce investment system
requirements were inconsistent with WIA          within the local area. The LWIB decided and
rules and regulations; the availability and      adopted a policy to give priority for training
amount of WIA needs-related funds were           services for adult participants to recipients of
improperly restricted from the complainant;      public assistance and other individuals with
the complainant’s training and educational       low income in accordance with WIA, Section
assistance was delayed; incomplete or            134(d)(4)(E). The Act requires income
inaccurate information was given to the          verification.
complainant; and the complainant was
disapproved for training after completion of     WHAT OIG RECOMMENDED
required job search activities.                  After examining the available information, we
                                                 concluded the allegations were not supported.
                                                 Consequently, we make no recommendations.
          Alleged Violations of Workforce Investment Act (WIA) Program and Federal Guidelines
                        at One-Stop Center Operated By Affiliated Computer Services, Inc. (ACS)


Table of Contents
                                                                                                                PAGE

EXECUTIVE SUMMARY ........................................................................................... 3


ASSISTANT INSPECTOR GENERAL’S REPORT…………………….………………..5

    1. Was the complainant improperly denied WIA program funds?....….................6

    2. Did the complainant's case file lack documentation on training
       completed?.......................................................................................................6

    3. Did WIA Dislocated Worker Program (DWP) requirements and eligibility
       change at each Local Workforce Investment Board (LWIB) meeting
       attended by the complainant?...........................................................................7

    4. Were the complainant's training requirements inconsistent with WIA
       rules and regulations?…...……………………………………………………..…..7

    5. Was the availability and amount of WIA needs-related funds improperly
       restricted from the complainant?…..……………………………..………………8

    6. Was the complainant's training and educational assistance delayed?.............8

    7. Was incomplete or inaccurate information given to the complainant?.…..…...9

    8. Was the complainant disapproved for training after completion of
       required job search activities?..........................................................................9

APPENDICES.......................................................................................................... 11
    A. Background .................................................................................................... 13

    B. Objective, Scope, Methodology, and Criteria ................................................. 15

    C. Acronyms and Abbreviations ......................................................................... 17

    D. Grantee Response......................................................................................... 19




U.S. Department of Labor—Office of Inspector General                                                                   1
Report Number: 05-06-002-03-390
Alleged Violations of Workforce Investment Act (WIA) Program and Federal Guidelines at
One-Stop Center Operated By Affiliated Computer Services, Inc. (ACS)




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                     U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 05-06-002-03-390
       Alleged Violations of Workforce Investment Act (WIA) Program and Federal Guidelines
                      at One-Stop Center Operated By Affiliate Computer Services, Inc. (ACS)



Executive Summary
We completed an audit of the alleged violations of the Workforce Investment Act
(WIA) program and Federal guidelines at the One-Stop Center operated in Wichita,
KS, by State and Local Solutions, a subsidiary of Affiliated Computer Services, Inc.
(ACS). Our audit was conducted in response to a hotline complaint alleging
mismanagement of the WIA program and Federal guidelines.

Our objective was to determine the merits of the eight allegations.

Results

We found that none of the individual allegations were supported, as summarized
below:

1. The complainant alleged that she was improperly denied access to WIA training
   because ACS had exhausted available program funds on participants not
   intended to be served. We determined that program funds were available at the
   time of complainant’s application, but that she was not initially enrolled because
   she failed to provide all requested income verification documentation. She was,
   however, later enrolled in training.

2. The complainant alleged that her training was not documented in the case file.
   Our review of the complainant’s case file notes indicated that the complainant’s
   training was noted in the case file.

3. The complainant alleged that eligibility requirements for WIA’s Dislocated Worker
   Program (DWP) changed with each Local Workforce Investment Board (LWIB)
   meeting. Our review of the LWIB meeting minutes from February 27, 2004,
   through February 28, 2005, found no evidence of changes in the WIA program
   requirements and eligibility.

4. The complainant alleged that the LWIB’s requirement that she attend job search
   activities were inconsistent with WIA rules and regulations. We determined that
   WIA regulations did permit ACS to require participants to attend job search
   activities.

5. The complainant alleged that ACS improperly denied her August 19, 2004,
   request for needs-related payments to assist her in buying fuel for her car. To be
   eligible, to receive needs-related payments, the adult must be (a) unemployed,
   (b) not qualify or have ceased qualifying for unemployment compensation, and
   (c) be enrolled in a program of training services under WIA, Section 134(d)(4).
   While the complainant met the first two program eligibility criteria, she did not
   meet the third since she was not yet enrolled in a program for training.

U.S. Department of Labor—Office of Inspector General                                      3
Report Number: 05-06-002-03-390
Alleged Violations of Workforce Investment Act (WIA) Program and Federal Guidelines at
One-Stop Center Operated By Affiliated Computer Services, Inc. (ACS)




6. The complainant alleged that her training and educational assistance were
   improperly delayed. We concluded that the determination to provide the
   complainant’s training and educational services was delayed because the
   complainant did not timely provide information on her Unemployment Insurance
   determination and past and present wages.

7. The complainant alleged that she had been provided with incomplete and
   inaccurate information about program requirements and time frames. We found
   no evidence to support her assertion.

8. The complainant alleged that ACS did not approve funding for her training and
   educational services even after she successfully completed the required job
   search activities. We determined that ACS did approve funding for the
   complainant to receive training and educational services.

Recommendations

We determined that allegations 1-8 are unsubstantiated. Consequently, we make no
recommendations.


Grantee Response

The Kansas Department of Commerce agreed with the audit results. The audit
substantiated the State’s initial monitoring review and determination that none of the
allegations were supported.


OIG Conclusion

After examining the available information, we concluded the allegations were
unsubstantiated. Consequently, no action is required since we make no
recommendations.




4                                     U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 05-06-002-03-390
       Alleged Violations of Workforce Investment Act (WIA) Program and Federal Guidelines
                     at One-Stop Center Operated By Affiliated Computer Services, Inc. (ACS)




U. S. Department of Labor                      Office of Inspector General
                                               Washington, DC 20210




                       Assistant Inspector General’s Report

Ms. Emily Stover DeRocco
Assistant Secretary
 for Employment and Training Administration

The Office of Inspector General (OIG) audited a complaint received through the OIG
Compliant Analysis Office against Affiliated Computer Services, Inc. (ACS). ACS
operates the Workforce Investment Act (WIA) program in Local Workforce
Investment Area (LWIA) IV in the State of Kansas. The complaint alleged
mismanagement of the WIA program and funds. Specifically, the allegations were:

   1. Was the complainant improperly denied WIA program funds?

   2. Did the complainant's case file lack documentation on training completed?

   3. Did WIA Dislocated Worker Program (DWP) requirements and eligibility
      change at each Local Workforce Investment Board (LWIB) meeting attended
      by the complainant?

   4. Were the complainant's training requirements inconsistent with WIA rules and
      regulations?

   5. Was the availability and amount of WIA needs-related funds improperly
      restricted from the complainant?

   6. Was the complainant's training and educational assistance delayed?

   7. Was incomplete or inaccurate information given to the complainant?

   8. Was the complainant disapproved for training after completion of required job
      search activities?

After examining the available information, we concluded all of the allegations were
unsubstantiated. Consequently, we make no recommendations. We conducted the



U.S. Department of Labor—Office of Inspector General                                      5
Report Number: 05-06-002-03-390
Alleged Violations of Workforce Investment Act (WIA) Program and Federal Guidelines at
One-Stop Center Operated By Affiliated Computer Services, Inc. (ACS)

audit in accordance with Government Auditing Standards. Our audit scope,
methodology, and criteria are detailed in Appendix B.

Objective 1. Was the complainant improperly denied WIA program funds?___

Results and Findings

No. Our audit of the training service provided to the complainant did not
substantiate the allegation.

The complainant alleged that she was improperly denied access to WIA training
because ACS had exhausted available program funds on ineligible participants. We
determined that program funding was available at the time of the complainant’s
application. She was initially denied program participation because she failed to
provide all requested income verification documentation. Therefore, we concluded
that this allegation was not supported.

LWIB IV had sufficient funds to serve adult and dislocated workers. Based on the
budget documentation provided by ETA and the FY 2004 Grant Recap
documentation provided by ACS, WIA training funds allocated to LWIB IV were not
exhausted during fiscal years (FY) 2003 or 2004. In program year (PY) 2004, the
WIA LWIB IV balance for the Dislocated Worker Program was $828,514 on
June 30, 2004, $790,733 on July 31, 2004, and $773,721 on August 31, 2004.

The LWIB’s Adult and Dislocated Workers Participant Eligibility Requirements policy
provided, “Priority for training services for adult participants will be given to recipients
of public assistance and other individuals with low-income in accordance with
WIA Section 134(d)(4)(E).” To determine an applicant’s priority for program
participation, the LWIB’s policy required verification of an applicant’s income for a
6-month period prior to program enrollment. Information in the complainant’s case
file indicated she applied for program assistance on June 17, 2004, but was initially
denied enrollment due to her failure to submit all requested income verification
information. On November 4, 2004, ACS re-started her eligibility determination and
ultimately provided educational assistance. The complainant was not denied
program assistance due to lack of available funds, but rather because of her failure
to provide income verification documentation. This allegation was unsubstantiated.

Objective 2. Did the complainant's case file lack documentation on training
completed? _______________________________________________________________

Results and Findings

No. Our audit of the complainant’s case file did not support the allegation.




6                                      U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 05-06-002-03-390
       Alleged Violations of Workforce Investment Act (WIA) Program and Federal Guidelines
                     at One-Stop Center Operated By Affiliated Computer Services, Inc. (ACS)

Our review of the complainant’s case file notes indicated that the complainant
received Core and Intensive Services, which included training. ACS has recently
begun using a new form to clearly document participants’ training and services. We
concluded this allegation was unsubstantiated.

Objective 3. Did WIA Dislocated Worker Program (DWP) requirements and
eligibility change at each Local Workforce Investment Board (LWIB) meeting
attended by the complainant?

Results and Findings:

No. Our audit of the Board meeting minutes did not substantiate the allegation.

The complainant alleged that the WIA Program requirements and eligibility changed
with each LWIB meeting. We reviewed the LWIB meeting minutes from
February 27, 2004, through February 28, 2005, and found no evidence that changes
in the WIA Program requirements and eligibility were made during these meetings.
Therefore, we concluded this allegation was unsubstantiated.

Objective 4. Were the complainant's training requirements inconsistent with
WIA rules and regulations?

Results and Findings

No. Our audit of the complainant’s job search requirements did not support the
allegation.

The complainant alleged that she was required by ACS to attend job search
activities everyday for 2 weeks or more before receiving training services, even
though WIA regulations did not contain such a requirement. We determined that
WIA regulations did permit ACS to require participants to attend job search activities.
Therefore, we concluded that this allegation was not supported.

WIA Section 134(d)(3) states “at a minimum, an individual must receive at least one
core service, such as an initial assessment or job search and placement assistance,
before receiving intensive services. . . . The job search and placement assistance
helps the individual determine whether he or she is unable to obtain employment,
and thus requires more intensive services to obtain employment. The decision of
which core services to provide and the timing of their delivery, may be made on a
case by case basis at the local level depending upon the needs of the participant.”

ACS was within its authority under WIA regulations in requiring the complainant to
attend job search activities before receiving educational services. This allegation
was unsubstantiated.



U.S. Department of Labor—Office of Inspector General                                      7
Report Number: 05-06-002-03-390
Alleged Violations of Workforce Investment Act (WIA) Program and Federal Guidelines at
One-Stop Center Operated By Affiliated Computer Services, Inc. (ACS)



Objective 5. Was the availability and amount of WIA needs-related funds
improperly restricted from the complainant?_________________________

Results and Findings

No. Our audit did not support the allegation.

The complainant alleged that ACS improperly denied her request for needs-related
payments. We determined that ACS denied the complainant’s request for
emergency assistance because she did not meet all eligibility requirements. We
noted that the previous LWIB IV program operator inappropriately gave needs-
related payments to participants. We concluded that this allegation was
unsubstantiated.

Needs-related payments are one of the supportive services authorized by
WIA Section 134(e)(3). They provide financial assistance to participants for the
purpose of enabling individuals to participate in training. To be eligible to receive
needs related payments, adults must be (a) unemployed, (b) not qualify or have
ceased qualifying for unemployment compensation, and (c) be enrolled in a program
of training services under WIA Section 134(d)(4).

On August 19, 2004, the complainant requested a needs-related payment to assist
in buying fuel for her car. ACS instructed the complainant to provide documentation
to support her eligibility and subsequently determined that while the complainant met
the first two programs’ eligibility criteria, she did not meet the third since she was not
yet enrolled in a program of training services. Therefore, ACS denied her request
for a needs-related payment.

According to the LWIB, the previous LWIB IV program provider (City of Wichita) had
inappropriately provided WIA needs-related payments to participants on an at will
basis rather than on a needs-related basis. The LWIB trained personnel at ACS on
WIA responsibilities and customer service to ensure that WIA needs-related
payments were used efficiently and effectively. The complainant was denied WIA
needs-related payments based on lack of eligibility. This allegation was
unsubstantiated.

Objective 6. Was the complainant's training and educational assistance
delayed?_______________________________________________________

Results and Findings

No. We found no evidence to support the alleged delays in providing training and
educational assistance.



8                                     U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 05-06-002-03-390
       Alleged Violations of Workforce Investment Act (WIA) Program and Federal Guidelines
                     at One-Stop Center Operated By Affiliated Computer Services, Inc. (ACS)


The complainant alleged that she did not receive timely assistance with training and
educational services. However, this determination was delayed because the
complainant did not timely provide required documentation relating to unemployment
insurance determination, past and present wages, and financial assessment
information to determine if there was a need for training. As a result, ACS could not
determine the complainant’s eligibility status and denied funding for educational
services. When the complainant was re-enrolled in November 2004, it was too late
to enroll in educational classes for the 2004 fall semester. The complainant did
ultimately receive funding for educational services and enrolled in classes in
January 2005.

The complainant did not receive more timely training and educational assistance
because she did not timely provide documentation to support her eligibility status.
This allegation was unsubstantiated.

Objective 7. Was incomplete or inaccurate information given to the
complainant?___________________________________________________

Results and Findings

No. Our audit of information provided to the complainant did not support the
allegation.

The complainant alleged that she received incomplete or inaccurate information
regarding paperwork requirements and the deadline. We found no evidence that the
complainant had been provided with incorrect information regarding program
requirements or timeframes. Therefore, we concluded that this allegation was not
supported.

We reviewed the complainant’s case file and interviewed ACS’s Case Manager and
LWIB officials. The case file contained the expected documentation for the Core
Services and Intensive Services provided. The Case Manager and other officials
stated that the complainant had been fully and timely informed of the program
requirements and deadlines.

The complainant provided only verbal testimony that she had been misinformed
about the program requirements and timeframes. We found no other evidence to
support her assertion. This allegation was unsubstantiated.

Objective 8. Was the complainant disapproved for training after completion of
required job search activities?_____________________________________

Results and Findings

No. Our audit of the approval of training funds failed to support the allegation.

U.S. Department of Labor—Office of Inspector General                                      9
Report Number: 05-06-002-03-390
Alleged Violations of Workforce Investment Act (WIA) Program and Federal Guidelines at
One-Stop Center Operated By Affiliated Computer Services, Inc. (ACS)


The complainant alleged that ACS did not approve funding for her to receive training
and educational services even after she successfully completed the required job
search activities. We determined that ACS did approve funding for the complainant
to receive educational services. Therefore, this allegation was not supported.

Although the complainant had still not provided all of the required documentation to
support her eligibility for priority services, in January 2005, ACS authorized funding
for the complainant to receive training and educational assistance. The complainant
has been attending Butler County Community College since January 2005, and
planned to transfer to Wichita State University to complete a Bachelor’s Degree in
Computer Science. The complainant did receive training and educational
assistance. This allegation was unsubstantiated.

Since all of the allegations were unsubstantiated, we make no recommendations.


Grantee’s Response

The Kansas Department of Commerce agreed with the audit results. The audit
substantiated the State’s initial monitoring review and determination that none of the
allegations were supported.


OIG Conclusion

After examining the available information, we concluded the allegations were
unsubstantiated. Consequently, no action is required since we make no
recommendations.




Elliot P. Lewis
May 18, 2005




10                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 05-06-002-03-390
       Alleged Violations of Workforce Investment Act (WIA) Program and Federal Guidelines
                     at One-Stop Center Operated By Affiliated Computer Services, Inc. (ACS)




Appendices




U.S. Department of Labor—Office of Inspector General                                     11
Report Number: 05-06-002-03-390
Alleged Violations of Workforce Investment Act (WIA) Program and Federal Guidelines at
One-Stop Center Operated By Affiliated Computer Services, Inc. (ACS)




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




12                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 05-06-002-03-390
       Alleged Violations of Workforce Investment Act (WIA) Program and Federal Guidelines
                     at One-Stop Center Operated By Affiliated Computer Services, Inc. (ACS)



                                                                            APPENDIX A

BACKGROUND

The Workforce Investment Act (WIA), which was effective on July 1, 2000, was
designed to reform the Federal job training system. WIA’s primary purpose is to
increase the employment, retention, skills, and earnings of its participants. One
component of WIA is specifically designed to assist dislocated workers to find
replacement jobs or train these workers to qualify for jobs in new occupations.

DOL provided funding to operate a WIA program in the State of Kansas through a
grant to the Governor. The Kansas Department of Commerce (KDOC) is the state
agency responsible for administering the WIA program. Kansas is divided into five
Local Workforce Investment Areas (LWIAs). In each LWIA, the Chief Elected
Official appoints members to the Local Workforce Investment Board (LWIB). In turn,
the LWIB selects and contracts with an organization to operate the WIA program in
its LWIA.

Effective January 1, 2004, the LWIB selected Affiliated Computer Services (ACS) to
operate the WIA program in LWIA IV. The WIA operating budget for LWIA IV was
$16.5 million for Program Year (PY) 2003 (July 1, 2003 – June 30, 2004) and $20
million for PY 2004 (July 1, 2004 – June 30, 2005). Of these totals, $5.8 million and
$7.2 million were budgeted for the Dislocated Workers Program in PY 2003 and
2004, respectively.




U.S. Department of Labor—Office of Inspector General                                     13
Report Number: 05-06-002-03-390
Alleged Violations of Workforce Investment Act (WIA) Program and Federal Guidelines at
One-Stop Center Operated By Affiliated Computer Services, Inc. (ACS)




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




14                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 05-06-002-03-390
       Alleged Violations of Workforce Investment Act (WIA) Program and Federal Guidelines
                     at One-Stop Center Operated By Affiliated Computer Services, Inc. (ACS)



                                                                            APPENDIX B

OBJECTIVE, SCOPE, METHODOLOGY, AND CRITERIA

Objective

Our objective was to determine the merits of eight allegations received through the
Office of Inspector General (OIG), Complaint Analysis Office against Affiliated
Computer Services, Inc. (ACS). ACS operates the Workforce Investment Act (WIA)
program in Local Workforce Investment Area (LWIA) IV in the State of Kansas. The
complaint alleged mismanagement of the WIA program and funds. Specifically, the
allegations were:

   1. Was the complainant improperly denied WIA program funds?

   2. Did the complainant's case file lack documentation on training completed?

   3. Did WIA Dislocated Worker Program (DWP) requirements and eligibility
      change at each Local Workforce Investment Board (LWIB) meeting attended
      by the complainant?

   4. Were the complainant's training requirements inconsistent with WIA rules and
      regulations?

   5. Was the availability and amount of WIA needs-related funds improperly
      restricted from the complainant?

   6. Was the complainant's training and educational assistance delayed?

   7. Was incomplete or inaccurate information given to the complainant?

   8. Was the complainant disapproved for training after completion of required job
      search activities?

Scope and Methodology

To determine the merits of the subject allegations, we interviewed the complainant
and officials at the KDOC, ACS, and the LWIB who are responsible for the
administration of the WIA Program for LWIA IV in Kansas. We reviewed the LWIB’s
and ACS’ Adult and Dislocated Workers Participant Eligibility Requirements and
three complaint case files. We reviewed all of the complaints to determine if they
were related to our audit objectives. This represented total complaints filed by
participants.



U.S. Department of Labor—Office of Inspector General                                     15
Report Number: 05-06-002-03-390
Alleged Violations of Workforce Investment Act (WIA) Program and Federal Guidelines at
One-Stop Center Operated By Affiliated Computer Services, Inc. (ACS)


We obtained the WIA budgetary information for FYs 2003 and 2004, and PYs 2003
and 2004, from the Employment and Training Administration (ETA) and the ACS
Grant. Also, we obtained Recap documentation for FY 2004 from ACS, and the
State Set Aside Fund information for FY 2003 from KDOC.

We did not test the overall internal controls of the WIA program, or perform a
complete audit of the WIA program. We only performed the necessary fieldwork and
tested controls to address the allegations. However, we noted the LWIB conducted
a monitoring review of the WIA Program in October 2004. The LWIB’s monitoring
reports addressed deficiencies in documenting Core Service and decision points in
the case management file. The LWIB’s monitoring reports did not identify any
issues relevant to the complainant’s allegations against ACS.

Criteria
We used the following criteria to perform this audit:

Workforce Investment Act, CFR 20 Parts 652 and Part 652 through 671 Final Rule,
and Wagner-Peyser Act
Federal Register Vol. 65, No.158 August 11, 2000, Rules and Regulations
Workforce Alliance of South Central Kansas Program Policies and Procedures
Manual -Training Service Policy
Workforce Alliance Dislocated Worker Eligibility Requirements
WIA Local Service Delivery Area IV-Monitoring Policy and Procedures




16                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 05-06-002-03-390
                               Alleged Violations of WIA Program and Federal Guidelines at
                       One-Stop Center Operated By Affiliated Computer Services, Inc. (ACS)



                                                                            APPENDIX C
ACRONYMS AND ABBREVIATIONS


ACS       Affiliated Computer Services, Inc.
DWP       Dislocated Worker Program
ETA       Employment and Training Administration
KDOC      Kansas Department of Commerce
LWIA      Local Workforce Investment Area
LWIB      Local Workforce Investment Board
OIG       Office of Inspector General
WIA       Workforce Investment Act




U.S. Department of Labor—Office of Inspector General                                    17
Report Number: 05-06-002-03-390
Alleged Violations of Workforce Investment Act (WIA) Program and Federal Guidelines at
One-Stop Center Operated By Affiliated Computer Services, Inc. (ACS)




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 05-06-002-03-390
       Alleged Violations of Workforce Investment Act (WIA) Program and Federal Guidelines
                     at One-Stop Center Operated By Affiliated Computer Services, Inc. (ACS)


                                                                            APPENDIX D
GRANTEE’S RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                     19
Report Number: 05-06-002-03-390
